                                                        National Railroad Passenger Corporation
                                                        Office of Inspector General
                                                        10 G Street N.E.
                                                        Washington, DC 20002




For Immediate Release – December 22, 2010


                        Amtrak Track Inspector Pled Guilty to Theft


        On December 20, 2010, Ross E. Kelly (Kelly), an Amtrak Foreman/Track Inspector, pled
guilty in United States District Court for the District of Maryland-Northern Division, to violation
of Title 18 U.S.C. Sec. 641, Theft from a Program Receiving Federal Funds. An investigation
established that Kelly made improper purchases using his United States General Services
Administration (GSA) credit card and inappropriately used an Amtrak vehicle on numerous
occasions. Additionally, Kelly falsely reported that he performed his assigned track inspections,
when he had in fact returned home or took personal trips. In some of these reports, Kelly falsely
claimed that he was working overtime.

      Kelly was sentenced the same date to six weeks of home detention with electronic
monitoring, and two years probation. Additionally, Kelly was ordered to make restitution in the
amount of $8,000. Kelly agreed to resign his employment with Amtrak.

        The investigation was conducted by the Amtrak Office of the Inspector General with
assistance from the GSA Office of the Inspector General, and was prosecuted by Assistant
United States Attorney Justin Herring in Baltimore, Maryland.


Contact: Adrienne Rish
Tel: 202-906-4534
E-Mail: Adrienne.Rish@amtrak.com

To learn more about Amtrak OIG visit www.AmtrakOIG.gov or Amtrak at
www.Amtrak.com
